No. 19-827
INTHE

~upreme <!Court of tbe Wniteb ~tates
GUAM, ET AL.,

Petitioners,
V.

ARNOLD DAVIS, ON BEHALF OF HIMSELF AND ALL
OTHERS SIMILARLY SITUATED,

Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 17th day of March, 2020, I caused three copies of the Brief in Opposition to
be served by third-party commercial carrier on the counsel identified below, and caused
an electronic version to be transmitted to the counsel identified below, pursuant to Rule
29.5 of the Rules of this Court. All parties required to be served have been served.
Michael F. Williams
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
(202) 389-5123
michael.williams@kirkland.com

Counsel for Petitioners

